No. 20-1596

TAYLOR LOHMEYER LAW FIRM, PLLC,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
BRIEF OF THE AMERICAN COLLEGE OF TAX
COUNSEL AS AMICUS CURIAE IN SUPPORT
OF PETITIONER

LAWRENCE M. HILL
Counsel of Record
STEPTOE & JOHNSON LLP
1114 Avenue of the Americas
New York, NY 10036
(212) 506-3934
LHill@steptoe.com

STEVEN TOSCHER
ROBERT S. HORWITZ
LACEY STRACHAN
HOCHMAN SALKIN
TOSCHER PEREZ, PC
9150 Wilshire Blvd., Ste. 300
Beverly Hills, CA 90212
(310) 281-3200
Toscher@taxlitigator.com

Attorneys for Amicus Curiae

i
TABLE OF CONTENTS
TABLE OF CONTENTS
TABLE OF AUTHORITIES

i
iii

BRIEF OF THE AMERICAN COLLEGE OF TAX
COUNSEL AS AMICUS CURIAE IN SUPPORT OF
PETITIONER
1
STATEMENT OF INTEREST

1

SUMMARY OF ARGUMENT

4

ARGUMENT

7

I. The Fifth Circuit’s Decision Creates
Uncertainty in the Application of the
Attorney-Client Privilege in the Enforcement
of John Doe Summonses
7
A. The IRS Summons Power Must Be Balanced
with the Attorney-Client Privilege
7
B. Under Longstanding Precedent, Client
Identities Are Privileged Where Disclosure Would
Reveal the Client’s Confidential Motive for
Retaining an Attorney
9
C. The Fifth Circuit’s Decision Is at Odds with
Settled Precedent and Risks Eroding the
Protections of the Attorney-Client Privilege
12
II. Uncertain Protection of the Attorney-Client
Privilege Will Erode the Important Role of Tax
Attorneys in the United States’ Tax System 14

ii

III. The Fifth Circuit’s Decision Creates the
Potential for Inconsistent Protection of the
Attorney-Client Privilege Among Circuits
16
CONCLUSION

17

iii
TABLE OF AUTHORITIES
CASES:
Baird v. Koerner,
279 F.2d 623 (9th Cir. 1960)

10-11

In re Grand Jury Proceedings (Jones),
517 F.2d 666 (5th Cir. 1975)

8, 10

In re Grand Jury Subpoena for Attorney
Representing Reyes-Requena,
926 F.2d 1423 (5th Cir. 1991)
Matter of Does,
671 F.2d 977 (6th Cir. 1982)
Matter of Grand Jury Proceeding, Cherney,
898 F.2d 565 (7th Cir. 1990)

10
7
2, 8

Taylor Lohmeyer L. Firm PLLC v. United States,
957 F.3d 505 (5th Cir. 2020)
4, 10, 13
Taylor Lohmeyer L. Firm PLLC v. United States,
982 F.3d 409 (5th Cir. 2020)
7, 13
Trammel v. United States,
445 U.S. 40 (1980)
United States v. BDO Seidman,
337 F.3d 802 (7th Cir. 2003)

8
10

United States v. Euge,
444 U.S. 707 (1980)

8

United States v. Fisher,
425 U.S. 391 (1976)

3

United States v. Hubbell,
530 U.S. 27 (2000)

12

iv

United States v. Powell,
379 U.S. 48 (1964)
Upjohn v. United States,
449 U.S. 388, 389 (1981)

8
4, 8

OTHER AUTHORITIES:
I.R.M. 9.5.11.9 (09-17-2020)

15

William Volz and Theresa Ellis,
An Attorney-Client Privilege for
Embattled Tax Practitioners,
38 Hofstra L. Rev. 213 (2002)

14

1
BRIEF OF THE AMERICAN COLLEGE OF TAX
COUNSEL AS AMICUS CURIAE IN SUPPORT
OF PETITIONER
The American College of Tax Counsel (the “College”)
respectfully submits this brief as amicus curiae in
support of petitioner Taylor Lohmeyer Law Firm,
PLLC.1
STATEMENT OF INTEREST
The College is a nonprofit professional association of
tax lawyers in private practice, in law school
teaching positions and in government, who are
recognized for their excellence in tax practice and for
their substantial contributions and commitment to
the profession. The purposes of the College are:
● To foster and recognize the excellence of its
members and to elevate standards in the
practice of the profession of tax law;
● To stimulate development of skills and
knowledge through participation in continuing
legal education programs and seminars;

1

Pursuant to Rule 37.6, counsel for amicus curiae states
that no counsel for a party authored this brief in whole or in
part, and no party or counsel for a party made a monetary
contribution intended to fund the preparation or submission of
this brief. No person other than amicus curiae, its members, or
its counsel made a monetary contribution to its preparation or
submission. Counsel for the College provided timely notice of
the College’s intent to file this brief, and all parties have
consented to its filing.

2
● To provide additional mechanisms for input by
tax professionals in development of tax laws
and policy; and
● To facilitate scholarly discussion and
examination of tax policy issues.
The College is composed of approximately 700
Fellows recognized for their outstanding reputations
and contributions to the field of tax law and is
governed by a Board of Regents consisting of one
Regent from each federal judicial circuit, two
Regents at large, the Officers of the College, and the
last retiring President of the College.
This amicus brief is submitted by the College’s Board
of Regents and does not necessarily reflect the views
of all members of the College, including those who
are government employees.
Effective tax administration and enforcement require
that taxpayers be able to seek advice from tax
counsel and disclose to counsel all needed
information, in confidence, in order to be correctly
advised and effectively assisted by counsel. A client’s
motive for seeking legal advice “is undeniably a
confidential communication.” Matter of Grand Jury
Proceeding, Cherney, 898 F.2d 565, 569 (7th Cir.
1990). The College submits this brief in support of
Taylor Lohmeyer Law Firm PLLC’s Petition for a
Writ of Certiorari, because of its interest in the
fundamental issue at the heart of this case: the effect

3
that enforcement of a John Doe summons issued to a
law firm may have upon the attorney-client privilege.
The College is concerned that the Fifth Circuit’s
decision, which allows the Internal Revenue Service
(the “IRS”) to use a John Doe summons to obtain the
identities of all clients who have consulted with
counsel on a specific matter, creates uncertainty
regarding established precedent in the Fifth Circuit,
runs counter to other sister circuits and creates
uncertainty in the scope of the protections of the
attorney-client privilege, which could result in an
erosion of the privilege that will have a “grave effect
on our justice system.” Id.
Fundamental and historical protections of the
attorney-client privilege will be adversely affected by
the uncertainty created by the Fifth Circuit’s
decision, potentially subjecting clients’ confidential
motives for seeking legal advice to disclosure. This
will lead to taxpayers being less candid with their
attorneys or foregoing legal advice altogether. As
this Court recognized, “[a]s a practical matter, if the
client knows that damaging information could more
readily be obtained from the attorney following
disclosure than from himself in the absence of
disclosure, the client would be reluctant to confide in
his lawyer and it would be difficult to obtain fully
informed legal advice.” United States v. Fisher, 425
U.S. 391, 403 (1976).

4
SUMMARY OF ARGUMENT
The Fifth Circuit’s decision in this case calls into
question the scope of “the oldest privilege for
confidential communications known to the common
law,” Upjohn v. United States, 449 U.S. 388, 389
(1981), the attorney-client privilege.
While the
identity of an attorney’s client is generally not
privileged, the majority of circuits recognize an
exception to this general rule: under certain
circumstances, the privilege will extend to a client’s
identity when disclosure would enable the
Government to connect the client to a known
confidential communication or to the client’s
confidential motive for retaining the attorney.
The issue here arises in the context of an IRS John
Doe summons directed to a law firm seeking the
names of clients who sought legal services relating to
offshore tax planning. This is the purpose of a John
Doe summons — seeking a list of client names — and
the applicability of the privilege to those client
names is precisely the issue at stake.
The Fifth Circuit decided that the “John Does’” client
names were not privileged because the Government
did not know “the substance of the legal advice the
Firm provided the Does” but had only a “reasonable
basis” for concluding that the firm’s clients may have
used its services “for concealing” their “beneficial
ownership in offshore assets.” Taylor Lohmeyer L.
Firm PLLC v. United States, 957 F.3d 505, 512 (5th

5
Cir. 2020). The Fifth Circuit held this sufficed to
place the case within the contours of the general rule
that client identities are not privileged, rather than
trigger the exception that applies where the
Government knows the specific confidential
communications between client and lawyer or the
client’s confidential motive in securing legal advice.
However, because the John Doe summons here was
framed in such a way that compliance with the
summons would reveal the clients’ confidential
motives for seeking the services of Taylor Lohmeyer,2
the Fifth Circuit’s decision creates uncertainty in the
application of the privilege, where certainty in the
application of the privilege is paramount. This
uncertainty risks undermining the protections of the
attorney-client privilege and may lead to inconsistent
application of the privilege among similarly situated
taxpayers residing in different circuits.
The
assistance of tax counsel is critical to helping
taxpayers comply with the complexity of the Internal
Revenue Code, Treasury Regulations, and IRS
rulings and to navigate investigations by the IRS. To
render meaningful assistance and help their clients
comply, tax attorneys need full disclosure from their
2

It was implicit in the lower court’s decision that Taylor
Lohmeyer was providing legal services. The College recognizes
the importance in such cases of a thorough factual investigation
by the District Court to determine whether the services
provided to clients fall under the scope of the attorney-client
privilege. The College would suggest the case be remanded for
further factual development to the extent the record is not clear
that legal advice was provided.

6
clients, disclosure that will be hampered if the client
believes that the fact that they are seeking tax
counsel could be subject to routine discovery by the
IRS.
The College believes that John Doe summonses are
an important investigative tool for the IRS in its
efforts to enforce this country’s tax laws and has
repeatedly voiced its support for the Government’s
efforts to ensure compliance with the tax laws. Yet,
as the dissent from the Fifth Circuit’s denial of en
banc review recognized, the use of John Doe
summonses to law firms raises “serious tensions” and
“the boundaries of attorney-client privilege in this
precarious area” should be clear.
The College
encourages the Court to grant the Petition for a Writ
of Certiorari, to ensure a uniform standard exists for
all federal courts to determine when divulging a
client’s identity would breach the attorney-client
privilege.

7
ARGUMENT
I.

The Fifth Circuit’s Decision Creates
Uncertainty in the Application of the
Attorney-Client Privilege in the Enforcement
of John Doe Summonses
A.

The

IRS

Balanced

Summons
with

the

Power

Must

Be

Attorney-Client

Privilege
While the John Doe summons is an important
investigative tool, the use of such a summons to
identify clients of a specific law firm, even for the
purpose of investigating them for potential
underpayment of tax, triggers important issues
regarding the attorney-client privilege.
Taylor
Lohmeyer Law Firm PLLC v. United States, 982 F.3d
409, 410 (5th Cir. 2020) (dissent to denial of
rehearing en banc).
In furtherance of the IRS’s responsibility to
administer and enforce the internal revenue laws,
Congress conferred authority on the IRS to make
accurate determinations of tax liability and to
conduct investigations for that purpose. A John Doe
summons is a summons issued to a third party to
surrender information concerning taxpayers whose
identity is currently unknown to the IRS. Matter of
Does, 671 F.2d 977, 979 (6th Cir. 1982).

8
While the summons power of the IRS has been
interpreted expansively to allow it to carry out its
important role of ensuring compliance with the tax
laws (see United States v. Powell, 379 U.S. 48 (1964)),
the Government’s enforcement interest must be
balanced with the importance of protecting the
attorney-client privilege. Intended to encourage “full
and frank communication between attorneys and
their clients and thereby promote broader public
interests in the observance of law and the
administration of justice,” the attorney-client
privilege is an essential part of our justice system.
Upjohn Co. v. United States, 449 U.S. 383, 389
(1981).
Such full and frank communication is
essential “if the professional mission is to be carried
out.”
Trammel v. United States, 445 U.S. 40, 51
(1980).
The summons power is “limited principally by
relevance and privilege.” United States v. Euge, 444
U.S. 707, 712 (1980).
While recognizing the
importance of the government’s investigatory role in
the judicial system, the court held in Matter of Grand
Jury Proceeding, Cherney, 898 F.2d 565 (7th Cir.
1990), that “[n]evertheless, the government's
interests in this instance must give way to those
served by the attorney-client privilege.” Cherney, 898
F.2d at 569; see also In re Grand Jury Proceedings
(Jones), 517 F.2d 666, 674 (5th Cir. 1975) (“The
purpose of the [attorney-client] privilege would be
undermined if people were required to confide in

9
lawyers at the peril of compulsory disclosure every
time the government decided to subpoena attorneys
it believed represented particular suspected
individuals.”).
The Fifth Circuit’s decision in Taylor Lohmeyer risks
upsetting the balance between these competing
interests, by creating uncertainty regarding the
application of the attorney-client privilege to protect
client identities, where disclosure of the identity
would reveal the client’s privileged confidential
motive for seeking the attorney’s advice.
This
uncertainty has the potential to lead to inconsistent
application of the attorney-client privilege across
taxpayers and should be addressed by the Court.
B.

Under

Longstanding

Precedent,

Client

Identities Are Privileged Where Disclosure
Would Reveal the Client’s Confidential
Motive for Retaining an Attorney
While the identity of a client is generally not
privileged, the circuit courts — including up to now
the Fifth Circuit — have consistently held that the
attorney-client privilege protects disclosures of client
identities when the Government knows or suspects it
knows the unknown client’s motive for hiring the

10
attorney.3 Jones, 517 F.2d at 673-674, 674-675 (“The
attorney-client privilege protects the motive itself
from compelled disclosure, and the exception to the
general rule protects the clients’ identities when such
protection is necessary in order to preserve the
privileged motive.”); In re Grand Jury Subpoena for
Attorney Representing Reyes-Requena, 926 F.2d 1423,
1431 (5th Cir. 1991) (explaining that where the
“confidential motive for retention of the attorney” is
known, disclosure of the identity of the client violates
the privilege).
This protection applies even if the Government does
not know the specific, substantive legal advice that
was provided to the client. Prior Fifth Circuit
decisions followed the holding of the seminal case on
this issue, Baird v. Koerner, 279 F.2d 623 (9th Cir.
1960), which held that “if the identification of the
client conveys information which ordinarily would be
conceded to be part of the usual privileged
communication between attorney and client, then the
privilege should extend to such identification in the
absence of other factors.” Baird v. Koerner, 279 F.2d
3

The Fifth Circuit in this case relied on the Seventh
Circuit’s earlier decision in United States v. BDO Seidman, 337
F.3d 802 (7th Cir. 2003), which evaluated a federal statutory tax
practitioner-client privilege. Taylor Lohmeyer, 957 F.3d at 513.
While analogous in some respects to the attorney-client
privilege, the tax practitioner-client privilege does not have the
historic importance to the justice system that the
attorney-client privilege has. Moreover, the decision in BDO
relied on the court’s finding in that case that the clients did not
have an expectation of confidentiality, which is not the case
here.

11
623, 631-632 (9th Cir. 1960). In Baird, the IRS
issued a summons to an attorney known for
representing taxpayers accused of violating internal
revenue laws, to seek the identity of taxpayers on
whose behalf the attorney had remitted payments to
the IRS for additional taxes owed by those taxpayers.
Id. at 626.
Although the IRS did not know the precise legal
advice the attorney provided — only that the client’s
motive for seeking legal advice related to their
unpaid taxes — the Ninth Circuit held that the
identities
were
privileged,
because
the
attorney-client privilege protects the client’s identity
where the revelation of that identity would enable
the Government to link a known confidential
communication or the client’s motive for retaining
the attorney to a particular client. Explaining that
the “names of the clients are useful to the
government for but one purpose — to ascertain
which taxpayers they think were delinquent so that
it may check the records for that one year or several
years,” the Ninth Circuit found that disclosure of the
client’s identity would enable the Government to
connect the client’s motive for retaining the attorney
to the particular client, because “[c]ertainly the
payment and the feeling of guilt are the reasons the
attorney here involved was employed — to advise his
clients what, under the circumstances, should be
done.” Id. at 634.

12
C.

The Fifth Circuit’s Decision Is at Odds
with Settled Precedent and Risks Eroding
the

Protections of the Attorney-Client

Privilege
The declaration signed by the revenue agent
supporting the IRS’s petition for leave to serve the
John Doe summons on Taylor Lohmeyer explained
that “the IRS is pursuing an investigation to develop
information about other unknown clients of Taylor
Lohmeyer PLLC who may have failed to comply with
the internal revenue laws by availing themselves of
similar services to those that Taylor Lohmeyer PLLC
provided to Taxpayer-1.” ROA.191. Through an
investigation of Taxpayer-1, the agent had learned
the details of the taxpayer’s reliance on Taylor
Lohmeyer with respect to the Taxpayer’s creation
and use of offshore structures and the tax
consequences thereof.
ROA.168, 174.
This
knowledge formed the basis of the John Doe
summons issued in this case, which sought the
identity of Taylor Lohmeyer’s clients who sought the
firm’s services in connection with offshore tax
planning.
Because the summons at issue requires the firm to
provide documents that connect specific clients with
specific services provided by the Firm, compliance
with the summons effectively requires testimony by
the firm regarding the client’s motives for engaging
the firm. See, e.g., United States v. Hubbell, 530 U.S.

13
27 (2000). This is the case regardless of whether the
Government knew the specific advice provided by the
firm or whether the Government had only a
reasonable basis for suspecting the client’s motive for
seeking the attorney’s services.
Notwithstanding Fifth Circuit precedent finding
client identities to be privileged under these
circumstances, the court below concluded otherwise
and, in so doing, created uncertainty in the standard
for determining when client identities are privileged.
The Fifth Circuit held that the privilege did not
apply here because it was not established that the
IRS knew the “specific, substantive legal advice” that
the firm provided to the taxpayers that the IRS
found to be improper. Taylor Lohmeyer, 957 F.3d at
512. The result is a decision that fails to protect a
client’s identity where disclosure would reveal the
client’s confidential motive for seeking the attorney’s
services, allowing the Government to investigate the
client for the very reason the client sought the
attorney’s assistance.
Eight judges on the Fifth Circuit out of seventeen
voted in favor of a rehearing en banc. Taylor
Lohmeyer, 982 F.3d at 410. The dissenting opinion to
the Fifth Circuit’s denial of a rehearing en banc,
joined by six of the dissenting judges, recognized that
such a holding may be interpreted as creating a new
standard for when client identities are privileged,
one that no longer protects the client’s confidential
motive for seeking legal advice. See id. The dissent

14
recommended that the Fifth Circuit grant rehearing
to “clarify the boundaries of attorney-client privilege
in this precarious area” and urged that the Fifth
Circuit’s decision be read “not to impose any new
standard with respect to what is required for the
attorney-client privilege to protect client identity.”
Id.
II.
Uncertain Protection of the
Attorney-Client Privilege Will Erode the
Important Role of Tax Attorneys in the United
States’ Tax System
Over the past several decades, the IRS’s use of
summonses directed at attorneys representing
targets of the IRS’s investigation has become
increasingly expansive.
See William Volz and
Theresa Ellis, An Attorney-Client Privilege for
Embattled Tax Practitioners, 38 Hofstra L. Rev. 213
(2002). As the six judges dissenting from the Fifth
Circuit’s denial of a rehearing en banc recognized,
traditionally, John Doe summonses were served on
financial institutions and commercial couriers, not
lawyers, and “[t]here is good reason to be wary of
investigations that exert pressure on lawyers.”
Protection of the attorney-client privilege is essential
for the proper administration of the internal revenue
laws. Our tax system is complex and relies on
voluntary compliance, causing taxpayers to seek the
assistance of tax attorneys to navigate the Internal
Revenue Code. Tax attorneys assist clients with

15
complying with the tax laws and advise clients on
how to structure their transactions for legal and
favorable tax results.
The decision in Taylor
Lohmeyer risks deterring taxpayers from seeking out
such legal advice, if in so doing the attorney can be
compelled by the IRS to turn over the taxpayer’s
name to be investigated by the IRS in connection
with the advice being provided by the attorney.
The IRS encourages taxpayers who have engaged in
prior non-compliance to come forward and correct
their non-compliance.
See, e.g., I.R.M. 9.5.11.9
(09-17-2020) (describing the IRS’s Voluntary
Disclosure Practice). As was the case in Baird, tax
attorneys routinely advise taxpayers who have not
complied with the tax laws and are looking for legal
advice in connection with coming into compliance.
This is a particularly sensitive issue since such
taxpayers may face potential criminal penalties for
past tax avoidance. The impact of the Fifth Circuit’s
decision as to these types of attorney-client
consultations is acute — by seeking legal advice to
address prior wrongdoing, such taxpayers would risk
having their names turned over by their attorney to
the IRS to be investigated for their noncompliance.
The opinion below will thus deter taxpayers from
seeking legal advice to correct past wrongdoing and
deprive these taxpayers of the confidential legal
counsel our justice system must encourage. The
result will be that fewer taxpayers will decide to
rectify prior noncompliance.

16
III. The Fifth Circuit’s Decision Creates the
Potential for Inconsistent Protection of the
Attorney-Client Privilege Among Circuits
With the importance of confidentiality to the
lawyer-client relationship in tax law, it is imperative
that the protections of the attorney-client privilege
apply consistently to all taxpayers.
The Fifth
Circuit’s decision in Taylor Lohmeyer makes
uncertain the scope of the privilege as to a client’s
identity.
Petitioner has detailed the standards applied by
other circuits that have addressed this question,
noting the variations between the standards applied
for when a client’s identity will be protected by the
attorney-client privilege and demonstrating the need
for clarity on the standard to be applied. That need
is more critical now, with the Fifth Circuit’s decision
creating an inconsistency among the circuits
regarding the standard to be applied in determining
whether disclosure of a client’s identity is privileged.
The College urges the Court to grant Taylor
Lohmeyer Law Firm PLLC’s Petition for a Writ of
Certiorari, to resolve this uncertainty and clarify
that the boundaries of the attorney-client privilege
include the protection of a client’s identity where
disclosure of that identity would reveal the client’s
privileged motive or purpose for engaging the
attorney.

17
CONCLUSION
For the foregoing reasons, the College respectfully
requests that the Court grant the Petition for a Writ
of Certiorari.

Respectfully submitted,

LAWRENCE M. HILL
Counsel of Record
STEPTOE & JOHNSON
LLP
1114 Avenue of the Americas
New York, NY 10036
(212) 506-3934
LHill@steptoe.com
STEVEN TOSCHER
ROBERT S. HORWITZ
LACEY STRACHAN
HOCHMAN SALKIN
TOSCHER PEREZ P.C.
9150 Wilshire Blvd.
Suite 300
Beverly Hills, CA 90212
(310) 281-3200
Toscher@taxlitigator.com

